<html>
<title> - GOVERNMENT ACCOUNTABILITY OFFICE'S REVIEW OF THE FEDERAL PROTECTIVE SERVICE: PRELIMINARY FINDINGS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  GOVERNMENT ACCOUNTABILITY OFFICE'S REVIEW OF THE FEDERAL PROTECTIVE 
                     SERVICE: PRELIMINARY FINDINGS

=======================================================================

                                (110-96)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 8, 2008

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                   U.S. GOVERNMENT PRINTING OFFICE
40-697 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               VACANCY
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
VACANCY

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY,               Virginia
Pennsylvania, Vice Chair             CHARLES W. DENT, Pennsylvania
TIMOTHY J. WALZ, Minnesota           JOHN R. `RANDY' KUHL, Jr., New 
STEVE COHEN, Tennessee               York
JAMES L. OBERSTAR, Minnesota         JOHN L. MICA, Florida
  (Ex Officio)                         (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Goldstein, Mark L., Director, Physical Infrastructure Issues, 
  Government Accountability Office...............................     3

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    27
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    28

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Goldstein, Mark L................................................    31


[GRAPHIC] [TIFF OMITTED] T0697.001

[GRAPHIC] [TIFF OMITTED] T0697.002

[GRAPHIC] [TIFF OMITTED] T0697.003

[GRAPHIC] [TIFF OMITTED] T0697.004

[GRAPHIC] [TIFF OMITTED] T0697.005



  GOVERNMENT ACCOUNTABILITY OFFICE'S REVIEW OF THE FEDERAL PROTECTIVE 
                     SERVICE: PRELIMINARY FINDINGS

                              ----------                              


                        Friday, February 8, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings, and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:15 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. Good morning. I am pleased to welcome Mark 
Goldstein, Director, Physical Infrastructure Issues at the 
Government Accountability Office, or GAO, here this morning. 
Mr. Goldstein has been a frequent witness in this 
Subcommittee's hearings over the years, providing valuable 
testimony on a wide range of infrastructure and similar issues.
    This hearing was scheduled because the GAO provided the 
Subcommittee serious preliminary findings concerning the 
condition of the Federal Protective Service, which is charged 
with providing security and public safety protection to one 
million Federal employees.
    The GAO has concluded that FPS has deteriorated so 
substantially that difficulties, and here I am quoting, may 
expose Federal facilities to greater risk of crime or terrorist 
attack. The GAO backs up this conclusion with documentation, 
much of which we found shocking. The Subcommittee believes, 
therefore, that the preliminary report should be placed on 
record at a public hearing.
    In considering what the GAO has reported, we have to be 
mindful that Federal facilities where Federal employees work, 
particularly the Pentagon and the Oklahoma City Federal 
Building, have been major sites for terrorist attacks in this 
country. One of the 9/11 planes struck the Pentagon and that 
became part of the worst terrorist disaster in our history. 
Federal facilities are symbols of the government that the 
terrorists want to bring down. We cannot forget that, in 
addition to Federal employees, millions of Americans frequent 
Federal facilities and depend on the FPS for protection against 
crime as well as terrorism.
    Security officials report that Federal buildings remain 
targets today. The documented history of terrorist assaults on 
Federal assets and the continuing threat requires high levels 
of vigilance to protect employees and visitors. The Congress 
has understood the need for bolstering police protection 
provided in the Capitol complex by the Capitol Police would not 
want to underestimate the importance of attention to other 
Federal employees.
    Nearly a year ago, on February 13, 2007, Chairman Jim 
Oberstar and I sent a letter to GAO asking that GAO review how 
the scope and mission of the FPS had been affected since its 
transfer from the General Services Administration, or GSA, to 
the Department of Homeland Security, DHS. In addition, we asked 
the GAO to review the Federal Protective Service budget and FTE 
levels to determine if they were adequate to support the newly 
transformed FPS, which has been converted to become an 
inspector-based workforce instead of the protection or police 
agency it was when it was absorbed into DHS.
    Both Chairman Oberstar and Ranking Member Mica have 
expressed their concerns about the gravity of changes and the 
wisdom of pursuing the radically new policy of replacing 
protection with inspection. We asked for a comparison of 
experienced workforce size, retention rates, salaries, and 
other issues from the time when FPS was within GSA to now when 
the agency was located within DHS. We were looking for before 
and after comparison. The Chairman and I raised serious 
concerns regarding whether the effectiveness of the FPS has 
been compromised since its placement inside the Immigration and 
Customs Enforcement, or ICE, even earlier, 2 years ago.
    On February 11, 2005, we wrote to the DHS Inspector General 
regarding the use of funds transferred by GSA to DHS to support 
the FPS, the Federal Protective Service. We wanted to ensure 
that DHS was in compliance with the Homeland Security Act that 
requires that any GSA rents and fees transferred to DHS be used 
solely for the protection of buildings and grounds owned or 
occupied by the Federal Government. The IG determined there was 
no particular violation of the Act then, but that the potential 
for violation existed and recommended that DHS and ICE identify 
a source of funds for FPS administrative costs. To the best of 
our knowledge, this recommendation has not been acted upon 
either by ICE or DHS.
    Later that year in June 2005, we wrote again because of 
increasing evidence that the placement of FPS within the ICE 
division had negatively affected the institutional integrity 
and law enforcement mission of the FPS. We were concerned that 
the separate funding source for FPS and its regional office 
command structure and mission were not aligned coherently with 
the ICE structure. We expressed our concern that the Department 
was not realizing the cooperation and potential savings 
expected after the creation of DHS and the placement of the 
Federal Protective Service in DHS. Yet another indication of 
our workforce concern was expressed in our letter to the 
Appropriations Committee on November 2, 2007, requesting that a 
minimum number of 1,200 FPS employees be required. This 
language was included in the appropriations.
    Most recently, at a hearing on April 18, 2007, the 
Subcommittee examined a still particularly troubling FPS 
proposal to drastically reduce FPS officers across the Nation, 
including providing no FPS officers in almost 50 cities. The 
Deputy Secretary of DHS then at the time, Michael Jackson, 
indicated in response to questions that he would pursue 
memoranda of understandings, or MOUs, with these jurisdictions 
to make up for the absence of Federal police officers.
    In fact, in staff briefings, DHS claimed to have in the 
works about 31 MOUs with city and local agencies. The fiscal 
year 2008 FPS budget called for no FPS officers in certain 
cities and said that, "local police support, was expected to 
act as a 'backstop' for securing Federal facilities."
    At the time, I noted my concern that local police 
jurisdictions have little reason to volunteer to assume 
unfunded mandates to protect Federal sites, particularly at the 
same time that local police departments were facing cuts in 
Federal programs to aid police departments.
    Today it is fair to ask, with whom have the MOUs been 
signed? What incentives have been identified for local police 
jurisdictions to take on the added burden of protecting Federal 
facilities in addition to their responsibilities for local law 
enforcement? We must ask as well whether we are seeing a slow 
disintegration of a workforce that has had a reputation as a 
highly effective and motivated police force, providing a 
valuable service to the Federal Government and its taxpayers. 
Are we witnessing the same disintegration of the FPS that 
occurred when FEMA was no longer an independent agency but 
became a part of DHS?
    Congress cannot afford to wait for an FPS debacle patterned 
on the decline and fall of FEMA. A primary lesson from the 
Katrina tragedy which shook DHS to its core was unprofessional 
staffing. We hold this hearing today to help us learn from our 
history and not to repeat it.
    I thank GAO for preparing testimony today and again welcome 
Mr. Goldstein and his colleagues. The Ranking Member regrets 
that he could not be here this morning. He has indicated he 
would want to submit a statement for the record. So ordered.
    Mr. Goldstein, we are prepared to receive your testimony.

TESTIMONY OF MARK GOLDSTEIN, DIRECTOR, PHYSICAL INFRASTRUCTURE 
            ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldstein. Thank you, Madam Chair. We are pleased to be 
here today to discuss the efforts of the Federal Protective 
Service in protecting Federal employees, the public, and 
Federal facilities.
    As you know in 2003, FPS was transferred from the General 
Services Administration to the Department of Homeland Security, 
and is currently tasked with providing physical security and 
law enforcement services to about 8,800 facilities owned or 
leased by GSA.
    Within DHS, FPS is part of the Immigration and Customs 
Enforcement component, ICE, the largest investigative arm of 
DHS. To accomplish its facility protection missions, FPS 
currently has a workforce of about 1,100 employees and about 
15,000 contract guards located throughout the country.
    While there has not been a large-scale attack on a domestic 
Federal facility since the terrorist attacks of September 11, 
2001, and the 1995 terrorist attack on the Oklahoma City 
Federal Building, it is important that FPS have sufficient 
resources and an effective approach to protect the over 1 
million employees of the Federal Government as well as members 
of the public that work in and visit Federal facilities from 
the risk of terrorist attack, crime, and related activities.
    This testimony provides preliminary information and 
analysis on, one, the extent to which FPS is fulfilling its 
mission to protect Federal employees and facilities; and, two, 
the management challenges that FPS faces. It is based on the 
preliminary results of our ongoing review of FPS, which we are 
doing at the request of this Subcommittee and several other 
Congressional Committees.
    To determine the extent to which FPS is fulfilling its 
facility protection mission and to identify the management 
challenges it faces, we analyzed FPS staffing data and we 
interviewed officers, inspectors, and administrators at 
headquarters and at six of FPS's 11 regions.
    So far in our work we have interviewed more than 200 FPS 
employees. We also interviewed GSA, tenant agencies, and local 
police departments about FPS's efforts to protect Federal 
employees, facilities, and the public. Due to the sensitivity 
of some of the information in this report, we cannot provide 
information about the specific locations of crime or other 
incidents that we discuss.
    My testimony makes the following points. Number one. First, 
due to staffing and operational issues, FPS is experiencing 
significant difficulties in fully meeting its mission. 
According to many FPS officials at regions we visited, these 
difficulties may expose Federal facilities to a greater risk of 
crime or terrorist attack. FPS's workforce, including both 
operational and support personnel, has decreased by about 20 
percent, from almost 1,400 in fiscal year 2004 to about 1,100 
at the end of fiscal year 2007. In fiscal year, 2007 FPS had 
756 inspectors and police officers responsible for law 
enforcement, and about 15,000 contract guards who were used 
primarily to monitor facilities through fixed post assignments 
and access control.
    FPS is also implementing a policy to change the composition 
of its workforce, as you mentioned, Madam Chair, whereby it 
will essentially eliminate the police officer position, and 
mainly utilize inspectors which have both physical security 
training and Federal law enforcement authority. According to 
FPS officials, this policy change will allow it to address 
longstanding challenges such as funding, and help ensure it has 
the right mix of staff to carry out its facility protection 
mission.
    One consequence of this change is that in many Federal 
facilities, FPS is not providing proactive patrol in and around 
Federal facilities in order to detect and prevent criminal 
incidents and terrorism-related activities before they occur. 
For example, at one location we visited, a deceased individual 
had been found in a vacant GSA facility that was not regularly 
patrolled by FPS. The deceased individual had been inside the 
building for approximately 3 months before the individual was 
found. And FPS did not find that individual; GSA found that 
individual.
    In addition, reports issued by multiple government agencies 
acknowledge the importance of proactive patrol in detecting and 
deterring terrorist surveillance teams which frequently use 
information such as the placement of armed guards in proximity 
to law enforcement agency stations when choosing targets and 
planning attacks. These sophisticated surveillance and research 
techniques can potentially be derailed by active law 
enforcement patrols in and around Federal facilities.
    Indeed, FPS has arrested individuals surveilling major 
government facilities. We note that FPS has also reduced its 
hours of operation in many locations and has not always 
maintained security countermeasures and equipment, such as 
security cameras, magnetometers, x-ray machines, radios, and 
building security assessment equipment at some facilities we 
visited, undermining protection of property and the deterrence 
of crime.
    Second, FPS continues to face several management challenges 
that many FPS officials say have hampered its ability to 
achieve its mission and increase the risk of criminal and 
terrorist activities on Federal employees, facilities, and 
members of the public. These include budgetary challenging, a 
lack of adequate contract guard oversight, and the absence of 
agreements with local police departments regarding response 
capabilities or jurisdictional issues at Federal facility.
    Historically, and recently, FPS revenues have not been 
sufficient to cover its operating costs. This revenue shortfall 
has been addressed in a variety of ways. For example, when FPS 
was located at GSA, it receives additional funding from the 
Federal Buildings Fund. These funds were not available after 
FPS was transferred to DHS, which caused FPS to experience a 
revenue shortfall and subsequently to implement cost-savings 
measures, as well as increase security fees charged to the 
tenants.
    For example, in fiscal year 2005, FPS faced a projected 
revenue shortfall of $70 million, and instituted cost savings 
measures that included restricted hiring and travel, limited 
training and overtime, and no employee performance awards. 
These measures have had a negative effect on staff morale and 
are partially responsible for FPS's high attrition rates and 
could potentially impact the performance and safety of FPS 
personnel.
    Moreover, many FPS officials at regions we visited 
expressed concern about the adequacy of contract guard 
oversight and poor performance by some guards when responding 
to crimes and incidents at Federal facilities. For instance, 
more than 20 handguns were stolen out of one Federal Building 
with the assistance of a contract guard; and, a law enforcement 
surveillance trailer worth half a million dollars was stolen 
from a Federal parking lot while guards watching through video 
cameras appeared to do nothing to stop the theft or even report 
it.
    FPS has stated before this Committee and elsewhere that it 
is a covering facility protection gaps through increased 
reliance on local law enforcement. However, FPS acknowledged to 
us that it has not signed any agreements with local law 
enforcement agencies to assure local assistance or to resolve 
jurisdictional issues which could authorize local police to 
respond to incidents at Federal facilities. Also, local law 
enforcement officials in most of the cities we visited said 
that, regardless of FPS's intentions, they do not have the 
capacity to respond to calls for service at Federal facilities, 
and would not sign agreements that would require them to take 
on additional responsibility. Moreover, officials at multiple 
local police departments said they were not aware of FPS's 
operational challenges or expected reliance on their services.
    As stated, our results are preliminary. We plan to provide 
this Subcommittee with our complete evaluation and a final 
report on FPS's facility protection efforts in May 2008. We 
plan to begin our review of FPS's contract guard program as 
requested by this Subcommittee and other congressional 
Committee in the near future.
    Finally, I want to recognize the assistance of the Federal 
Protective Service and its director, who were extremely helpful 
to GAO, in setting up dozens of interviews that allowed us to 
meet more than 200 police officers or inspectors, who everyday 
defy obstacles to protect the property and people of the 
Federal Government.
    This concludes our testimony, and we are pleased to answer 
any questions that you may have.
    Ms. Norton. Thank you very much, Mr. Goldstein.
    Some of that testimony is pretty hair-raising, and it 
inclines me to want to know, whether do you think the 
conditions you found, if you could elaborate on the percentage 
of facilities you have been able to visit so far and whether 
you think these are national concerns? I would be interested in 
your view of the State of the Federal Protective Service and 
the National Capital region, where about half of the Federal 
presence is located as well. But first, nationwide. How 
typical? Then the National Capital region.
    Mr. Goldstein. Sure. I would be happy to respond. It is not 
possible for us to say that this is universal based on our 
visits, of course. But I must say that, in every region and in 
every city and every place that we visited, these concerns were 
raised. And the examples I have talked about are just a few. I 
would briefly provide a couple more for you for the record.
    Regarding issues of response time; there was a suicide in a 
Federal building, but FPS first had to ask for overtime 
authorization before they could respond to the event.
    Ms. Norton. Would you elaborate on that? There was a 
suicide that occurred during working hours, after working 
hours?
    Mr. Goldstein. It was basically at closing time, is our 
understanding. And the Federal Protective Service these days 
only tends to work regular business hours during the week.
    Ms. Norton. You are telling me that if there is an 
emergency of some kind, that somebody has to give a police 
officer permission to use overtime to go to the emergency when 
he is supposed to go home?
    Mr. Goldstein. The Mega Center or some other FPS officer 
must first ensure that there is an overtime authorization if 
those individuals have already worked their hours. That is 
correct. And it affects response time.
    Ms. Norton. Is it your understanding that Federal police 
officers, who are the equivalent of police officers in a city, 
they are peace officers, had to have permission, overtime 
permission in order to answer such calls in the past?
    Mr. Goldstein. Just in recent years. In previous years, 
when there was more sufficient budget and when there were more 
officers, this is not an issue. But we have heard about this 
kind of an issue in many places. It has occurred with respect 
to demonstrations, where demonstrations which were public 
demonstrations at Federal facilities that were going on longer 
than anticipated, officers, because their shift was over, were 
instructed to leave. Authorization had to first be obtained 
before they could remain any longer. Yes. This is very much an 
issue.
    Ms. Norton. So suppose there is an emergency. Particularly 
given what you have described as a diminishing workforce if 
there is an emergency, and there is no overtime authorization, 
what is the peace officer supposed to do, the Federal 
Protective Service officer supposed to do in the event of an 
emergency?
    Mr. Goldstein. Well, the likelihood is there would not be 
an officer present at that point. In most facilities, 
particularly evenings and weekends, there are no Federal 
officers present. And generally, because of the reduction in 
the number of officers generally, FPS officers have to often 
travel great distances to oversee the buildings that they are 
responsible for and to oversee the contract guards they have, 
as much as 5 hours away. Responses can be hours late, they can 
be days late. In many instances, FPS officers and inspectors 
live in adjoining states to the buildings they are responsible 
for if they have a large area.
    Ms. Norton. Are there facilities where only security guards 
are available, and they would have to call a peace officer or 
Federal Protective Service officer?
    Mr. Goldstein. Yes, ma'am. All the time.
    Ms. Norton. So there are facilities where there are only 
security guards?
    Mr. Goldstein. That is correct. There are 8,800 Federal 
buildings, and only 260 Federal police officers, 570 odd 
inspectors. [Subsequent to hearing, edited to read: 215 Federal 
police officers, 541 inspectors.] So, yes, there are absolutely 
many Federal buildings without any officer present on a regular 
basis. They need to come from either adjacent buildings or 
often farther away. As our testimony indicates, there was an 
example recently in which an inspector retired some 6 months 
ago. His 70 facilities have yet to be reassigned, so the 
contract guards in those 70 buildings are without any 
supervision.
    Ms. Norton. Would you describe what the authority of a 
security guard is. If a security guard sees a crime, if a 
security guard has an emergency; what is the difference between 
what the security guard can do and what the FPS officer can do?
    Mr. Goldstein. Sure. Most contract guards are very limited 
in their responsibilities. They can monitor facilities, mostly 
through fixed post assignments. There are a few roving 
assignments, but most are fixed posts.
    Ms. Norton. Does that mean the security guards do not 
patrol?
    Mr. Goldstein. That is correct. It is very limited. There 
are some limited perimeter patrols, but it is quite limited. 
Mostly it is fixed patrol. Often they may stand right outside a 
major entryway to observe. But, for the most part, they do not 
have any capability to patrol the perimeter and to be proactive 
in trying to determine threats to a facility.
    Ms. Norton. So if there were only security guards present 
at a particular facility, does that mean there would be no 
proactive patrolling whatsoever going on?
    Mr. Goldstein. That is correct. If FPS follows through on 
their program to essentially reduce and eliminate the patrol 
officer on the function of the proactive patrol.
    Ms. Norton. You say, have eliminate.
    Mr. Goldstein. It has been eliminated in almost all places 
already, for all intents and purposes.
    Ms. Norton. So where they have been eliminated, where there 
is not an FPS officer on duty, then there is no proactive 
patrolling whatsoever?
    Mr. Goldstein. Yes, ma'am.
    Ms. Norton. And that would be what percentage of buildings 
do you think in the United States?
    Mr. Goldstein. I don't know the actual number, but it is 
virtually all.
    Ms. Norton. Would you have an idea what kind of buildings 
the FPS, the universal buildings, the cross-section of 
buildings where FPS officers would generally have been 
assigned?
    Mr. Goldstein. Most of the facilities that FPS would still 
be using for proactive patrolling would be the highest level, 
what they deem the highest level threats, what are called Level 
4 buildings, where you have the most number of Federal 
employees, the most number of people in the public coming in 
and out, agencies of the government that are sort of more 
sensitive than others like law enforcement agencies, that sort 
of a thing, and major urban areas. That is where you would find 
any remnants of proactive patrol occurring.
    Ms. Norton. What is the proportion of inspectors to Federal 
Protective Service?
    Mr. Goldstein. To police officers?
    Ms. Norton. Police officers.
    Mr. Goldstein. And I have that figure. There are currently 
541 inspectors and 215 officers as of the end of fiscal 2007.
    Ms. Norton. 513----
    Mr. Goldstein. 541 inspectors, 215 officers.
    Ms. Norton. Now, these inspectors are all police officers 
as well?
    Mr. Goldstein. Yes, ma'am. But their duties are much 
greater.
    Ms. Norton. Were these people doing police work before the 
inspector notion entered the equation?
    Mr. Goldstein. Yes, they were.
    Ms. Norton. So that means we have 541?
    Mr. Goldstein. And they still do some police work.
    Ms. Norton. What do they do? What proportion of their work 
is--first of all, I am going to, at some point, after this 
question, ask you to describe what an inspector who is from the 
Federal Protective Service does. But what, how much of the work 
of the inspector, since the inspector is an officer, how much, 
what portion of the work is inspection and what proportion is 
normal or traditional police work?
    Mr. Goldstein. I can answer both this question and the next 
probably together. I think it would be helpful to you.
    Inspectors have the following responsibilities: They have 
to oversee the contract guards; they have to do the building 
security assessments for all the buildings that they are 
responsible for; they are the contracting officer technical 
representatives for all the contract guard programs; they do 
have law enforcement response; they have to handle criminal 
investigations; they collect contract guard time cards; and 
they are the folks who also work with the building security 
committees, which are the groups of tenants inside buildings 
who help make decisions about security arrangement.
    And, most of the time--and there are also the K-9 officers 
in many instances as well handling the dogs that do bomb 
sniffing and the like. But most of their time is spent doing 
building security assessments and handling, increasingly, their 
roles as contracting officer technical representatives, which 
used to be a function but that function no longer exists and 
now it is their responsibility.
    Ms. Norton. That sounds like an administrative function, 
some of it.
    Mr. Goldstein. It is, ma'am.
    Ms. Norton. So these peace officers are doing mostly 
administrative work?
    Mr. Goldstein. Both the officers and the inspectors in the 
field had very serious concerns about the role of the inspector 
to be able to get out and into the field and to assist as 
backup or to assist in emergencies, and to do anything other 
than, frankly, do a lot of paperwork behind their desk. And 
that was raised in multiple interviews that we had.
    Ms. Norton. I am having a hard time understanding what an 
inspector does. You go around inspecting for what?
    Mr. Goldstein. Their principal responsibility is for the 
building security assessments. They all within their purview 
have to do on a regular basis review the security issues within 
the buildings they have. So if an inspector has 70 buildings or 
100 buildings, they are responsible for going to those 
buildings and doing in-depth review on a regular basis. 
Depending on the level of the building, there is a requirement 
that that building be reassessed on either a 1-year or 4-year 
period. It is a pretty regular cycle. But these are relatively 
difficult to do because they are involving a lot of different 
parameters in terms of understanding countermeasures, lighting, 
posts, and the kinds of threats that occur at these buildings.
    One of the concerns we have heard is that, because of the 
overwhelming responsibilities now being pushed on to these 
inspectors, that both the quality of the building security 
assessments and the time that they are taking to complete them 
have been impacted. And I know of at least one agency that has 
actually gone out and asked the Army Corps of Engineers to redo 
their building security assessment because they were not happy 
with the assessment done by the Federal Protective Service.
    Ms. Norton. If they are looking to make sure that the 
building is secure, I note in your testimony, I am quoting from 
your testimony, "had not always maintained security 
countermeasures and equipment, such as security cameras, 
magnetometers, x-ray machines, radios, and building security 
assessment equipment." Now, if you are not going to have 
proactive patrolling, you would think at the very least these 
inspectors would make sure all their cameras are working and 
all the radios and other alternative security devices, 
alternative to perhaps some patrolling in place. When you say 
have not always maintained these, did you find that these 
cameras and other devices were often not working, or were they 
in working order most of the time?
    Mr. Goldstein. We found in a number of instances that some 
measure of these countermeasures were not working. We found at 
one very large Federal building that, of 150 cameras, only 11 
of them had the capability to record. We had another very large 
Federal building----
    Ms. Norton. Wait a minute. 150 cameras throughout the 
building?
    Mr. Goldstein. That is correct.
    Ms. Norton. And 11 were----
    Mr. Goldstein. Were in fully functioning working order at 
one of the largest Federal buildings in the United States.
    Ms. Norton. What would have been the reason for that, Mr. 
Goldstein? Would it have been inspection? Would it have been 
lack of funding?
    Mr. Goldstein. Principally, a lack of funding, according to 
FPS, to fix them.
    Ms. Norton. So FPS has reduced patrols. And what might be 
at least some kind of helpful a alternative, which is at least 
have cameras throughout the building, also don't work in many 
instances. Is that your testimony?
    Mr. Goldstein. Yes, ma'am. We found another large Federal 
building that, while they had some cameras in place, they had 
decided it was not a sufficient number and they ordered a lot 
more cameras. And those cameras had, until very recently, been 
sitting in boxes for 5 years because there were not the funds 
to finish the enhancement program.
    Ms. Norton. They were sitting in boxes for 5 years for what 
reason?
    Mr. Goldstein. Because there were not funds to complete the 
program.
    Ms. Norton. You mean they were delivered?
    Mr. Goldstein. They were delivered and not installed.
    Ms. Norton. There weren't the funds to get them installed?
    Mr. Goldstein. That is what we understand. Yes.
    Ms. Norton. Because you have to have somebody who knows how 
to install them to do it, and you have to pay them.
    Mr. Goldstein. And connect them to the rest of the system 
and ensure that they work. And they were sitting in boxes for a 
number of years. I might add, if I may, ma'am, that in many 
instances, the absence of these kinds of countermeasures like 
cameras, have prevented the FPS from investigating crime on 
Federal property. There are a number of places where crimes 
have occurred. Laptops are frequently being stolen out of 
Federal buildings.
    There is one Federal building where two 42-inch plasma 
television screens were removed from a Federal building. And I 
mentioned the incident earlier with the handguns that were 
taken. It was very difficult in many instances, and in some 
impossible, for FPS to investigate these crimes because there 
were no cameras working that recorded the thefts.
    Ms. Norton. If FPS is reducing its workforce, does it mean 
that it is no longer recruiting officers.
    Mr. Goldstein. We were told in many of the regions we went 
to that they have not been replacing people. They have not--
they are not replacing people. I mentioned, for instance, the 
inspector who was retired some 6 months ago, and his 70 
buildings have been just sitting out there for the last 6 
months with no real oversight. They are not replacing people. 
We have heard that all over the agency. And there is an 
incredible amount of turnover. Here, in the National Capital 
region, there had been, in the last 16 months, there have been 
five regional directors of the National Capital region.
    Ms. Norton. Five regional directors within the last how 
many months?
    Mr. Goldstein. Roughly, 14 months.
    Ms. Norton. So, let me ask you this. A Federal police 
officer who has had training, where are Federal police officers 
trained?
    Mr. Goldstein. Well, recently the FPS has had no money for 
training. So they have not been training, except for very basic 
kinds of things. And they have had no money to travel, so they 
have done it right in their own offices.
    Ms. Norton. So when was the last time there was a 
recruiting class?
    Mr. Goldstein. I am not certain of that. I will provide 
that for the record.
    Ms. Norton. As people retire, they are not being replaced?
    Mr. Goldstein. That is correct. And when it comes to the 
police officer corps, they are--in many instances, we heard 
many stories that they had been actively ushered out, where the 
agencies is encouraging them. There are high level agency 
executives who have said, there is no future for you. We are 
getting rid of the police force. If you plan to stay at FPS, 
you must become an inspector. Otherwise, you should leave.
    Ms. Norton. So your testimony is that you believe the 
intention of DHS, the security agency, the place to which the 
Federal Protective Force was transferred in order to enhance 
security of Federal agencies intends to not only reduce but 
eliminate the police force that was to be the security force.
    Mr. Goldstein. They plan to transform it into this 
inspector-based approach and, yes, eliminate police officers 
per se.
    Ms. Norton. The fact that the inspectors have police power 
is like saying that a line officer in a police department that 
sits at a desk has police power. Yes, but he is not expected to 
go out and patrol; he doesn't do duty, and he is there to be an 
administrator. Certainly his police background is important for 
his work. But, of course, people who work in these buildings 
believe that they are being protected by people who are armed 
police officers.
    The vacant facility, the vacant GSA facility not regularly 
patrolled by FPS, so much so that a dead body was found that 
you believe had been, was it three months?
    Mr. Goldstein. Yes, ma'am. Three months.
    Ms. Norton. And it wasn't found by the FPS.
    Mr. Goldstein. It was found by GSA, because it was a vacant 
building that GSA was trying to sell and GSA went into the 
building with a prospective buyer and apparently maybe 
literally stumbled on the body. But they are the ones who found 
it, not FPS.
    Ms. Norton. Well, I just want to say for the record, I 
would be the last one to say we ought to patrol a vacant 
building the way you do other buildings. But your testimony 
seems to be that this is a building that would never been 
patrolled.
    Mr. Goldstein. That is correct. It is my understanding that 
GSA was paying for that building.
    Ms. Norton. GSA was paying for the building?
    Mr. Goldstein. In terms of its fees to FPS, that included 
that building.
    Ms. Norton. One doesn't have to live in a big city to know 
who vacant buildings draw, what kinds of squatters and even 
thugs and others are drawn to vacant buildings. So that while 
one wouldn't be patrolling in the same way you would a building 
where people are working, the notion of not patrolling them at 
all would be very, very troubling. And then it took a fire to 
get anybody to look at the building at all.
    Mr. Goldstein. And as an interesting add-on, ma'am. With 
that building, and this gets to the staff reduction problem, 
when FPS did respond to the dead body in this facility, they 
used their entire staff in the city to respond. They had so few 
people on patrol at the time that in responding to one incident 
like that, it took all the people they had.
    Ms. Norton. I mean, this is a dead body.
    Mr. Goldstein. I am not sure why. But it raises the 
staffing concerns that we have so shorthanded.
    Ms. Norton. Because in order to respond to this building 
where they found a dead body, the FPS pulled people from where?
    Mr. Goldstein. From the entire city. And so the other 
places that they protect in this particular city were 
unprotected.
    Ms. Norton. That brings me to a question on management of 
the Federal Protective Service. If you have a dwindling number 
of police officers, is there the capability to manage the 
police part of the force at this point? Your testimony that you 
pull everybody from where there are live bodies to where there 
is one dead body leads me to that question. Who is, in fact, 
trying to manage such a small police force who has jurisdiction 
over so many Federal facilities?
    Mr. Goldstein. You raise a good point, because it is 
interesting. We look back at the record. Back in 1976, the 
Federal Protective Service had 5,000 police officers, no less 
the rest of their staff.
    Ms. Norton. When?
    Mr. Goldstein. 1976.
    Ms. Norton. Had----
    Mr. Goldstein. 5,000 police officers.
    Ms. Norton. That is pure peace officers?
    Mr. Goldstein. That is correct.
    Ms. Norton. That is----
    Mr. Goldstein. As opposed to the 215 today.
    Ms. Norton. Now, are there more Federal facilities today 
than there were in 1976?
    Mr. Goldstein. Certainly.
    Ms. Norton. Many more?
    Mr. Goldstein. I don't know the actual number more.
    Ms. Norton. In your final report, you will include the 
number of buildings where normally there would be FPS presence 
and the increase, since that time along with the 5,000 to 215. 
And, if I may say so, post 9/11. And we are talking about the 
Department of Homeland Security. And they were transferred to 
this department because to enhance their role as a security 
force.
    The ironies roll out of this preliminary report. And we 
certainly did not want to be accused of sitting on it when we 
knew this much. We expect to hear more from you, but this is 
very troubling.
    I asked you about--there are two conversions going on here. 
The Subcommittee hasn't generally opposed the use of security 
guards. We understand why some of the force, necessarily with 
the security guards, we understand that they have less 
authority, and there has generally not been on either side of 
the aisle wholesale belief that nothing but police should be 
present. At the same time, we have recognized what the 
limitations of security guards are. I would like you to spell 
out those limitations so that they are understood.
    What is it that a security guard can do, for example, one, 
to prevent crime; and, two, in the event of a crime?
    Mr. Goldstein. Sure. To prevent crime, they only have their 
own eyes and ears, for the most part. They have--certainly they 
have guns. They do not have arrest or detention powers.
    Ms. Norton. Now, they have guns. What can they do with 
those guns?
    Mr. Goldstein. Theoretically, they can use them. However, 
in every region that we went to, one of the major concerns that 
FPS officers and inspectors shared with us was an overriding 
concern of the limitations of their contract guard force in 
that they believe and told us that contract guards are told by 
their firms that they should not get involved; that if 
incidents occur, that they should never use their firearm, they 
should never try to grapple with people, because the firms do 
not wish to encounter the liability.
    Ms. Norton. Wouldn't the firm be liable? Doesn't the 
Federal Government not insure for contractors, to self-insure 
for contract guards.
    Mr. Goldstein. I don't know the answer to that question. We 
will look into it. But the concern raised by the officials, 
virtually all, every person we talked to out in the field, was 
that they would not receive assistance from the contract guards 
in emergencies.
    Ms. Norton. So is this why the contract guards watched 
while someone was stealing? Would you recount that incident 
again? You said the contract guards witnessed some crime.
    Mr. Goldstein. Even more to the point in our testimony is 
the incident in which in a major Federal building you had an 
inspector who was in the process of taking someone into custody 
who had an outstanding warrant. That person knew the building 
because they had been in it before. While the officer was 
arresting them, the individual had one hand cuffed, one wrist 
cuffed, got into a struggle with the guard. The guard, the 
police officer--the Federal police officer ended up ripping the 
guy's shirt off. The guy went running through the Federal 
building, down through the main lobby with the inspector 
following him. And there were four----
    Ms. Norton. The inspector who was a peace officer?
    Mr. Goldstein. Who was a peace officer, following him. And 
four or five contract guards, all of whom are armed, standing 
in the lobby, stepped aside. The individual went flying through 
the front doors, automatic doors, went running down the street, 
and was only apprehended by another FPS officer who happened to 
be in a car about two blocks away. This occurred about two 
weeks ago. This is a rather recent incident. And so here was an 
incident in which Federal officers would ordinarily expect to 
rely on contract guards, but they were of no assistance.
    Ms. Norton. Well, not only contract guards. This is very 
troubling, it would be pathetic, when you consider that 
citizens, often when they see somebody running from the cops, 
will often try to stop them. When five different guards feel 
they shouldn't intervene, that says to me that they have an 
understanding, and that that understanding is not only 
themselves but--it is not only among themselves and their own 
company, but that that understanding must be the understanding 
of the Federal Protective Service as well. Has the Protective 
Service blessed this approach, that a security guard should 
stand aside when he sees someone fleeing from the police?
    Mr. Goldstein. I can't answer that question specifically. 
But I can tell you that many of the people we talked to, many 
of the officers or inspectors were very frustrated by that.
    Ms. Norton. Could I ask that you ask the Federal Protective 
Service what it is that the Federal Protective Service believes 
that security guards should do in the event of incidents such 
as you described, and whether the Federal Protective Service 
has said it is in keeping with the policy of the Federal 
Protective Service that the guards not intervene even when they 
see someone fleeing from a--obviously fleeing from an officer?
    Mr. Goldstein. Yes, ma'am. We will. The other concern 
raised often is that even in doing their normal duties they are 
not often adhering to post orders.
    Ms. Norton. What do you mean?
    Mr. Goldstein. The orders that govern how contract guards 
are supposed to operate at their fixed posts when people are 
coming into the building. Or, as we indicated earlier in our 
testimony, when a large surveillance trailer owned by a Federal 
agency was stolen, it was very clear from the videotape that 
contract guards were observing through camera this trailer 
being stolen but never, did not go out to intervene and also 
did not even report it.
    Ms. Norton. What could the contract guard have done? What 
might the contract guard have done?
    Mr. Goldstein. They could have gone out to try to stop the 
individuals from busting through the Federal parking lot with 
this trailer. They could have and should have called either the 
Mega Center or the Federal Protective Service.
    Ms. Norton. They didn't even call?
    Mr. Goldstein. No, ma'am. This was not--there was no report 
and no action taken until after the law enforcement agency that 
owned this trailer, which was worth about half a million 
dollars because it was filled with sensitive surveillance 
materials. It was a law enforcement agency's trailer that was 
worth about half a million dollars, and it was----
    Ms. Norton. So this was a trailer that contained law 
enforcement information compiled by a law enforcement agency.
    Mr. Goldstein. And what happened is someone backed the 
truck up to this trailer, hooked the trailer up, they tried to 
get out of the gate. They tried to raise the gate of the 
parking lot. They could not raise the gate, so they simply 
drove through the gate. They busted the gate down. And this 
entire incident appears to have been watched, because there is 
video of the camera moving in and out and around as this 
occurred. But the contract guards never called the Federal 
Protective Service or the Mega Center or local law enforcement. 
And the only time they did anything, as far as we know, is 
about 3 or 4 days later the law enforcement agency realized 
that its trailer was missing and started making inquiries. And 
only at that point----
    Ms. Norton. So there had been no report until the agency 
that----
    Mr. Goldstein. Lost the trailer.
    Ms. Norton. Found it didn't have a trailer anymore?
    Mr. Goldstein. That is correct.
    Ms. Norton. And how long between the theft and the 
discovery?
    Mr. Goldstein. It was within 3 or 4 days.
    Ms. Norton. We are talking about a great big trailer?
    Mr. Goldstein. Yes, ma'am.
    Ms. Norton. So even the so-called guard, let's assume the 
guard, these guards, and not policing guards. The guard 
function, what was not being, was not being----
    Mr. Goldstein. The guard was not following the orders that 
they had.
    Ms. Norton. The guard function was also not being followed. 
What happened as a result?
    Mr. Goldstein. We made an inquiry to determine what 
happened to that contract guard, and we were told that that 
contract guard was taken off of that post but is still with 
that guard service and he is at another Federal facility, 
monitoring in that facility.
    I would just add, one of the concerns that officers 
regularly raise, as I was mentioning earlier, was that guards 
don't follow the orders that they have. Obviously, if someone 
is stealing a major piece of surveillance equipment, you are 
supposed to report it. We personally witnessed in entering one 
major Federal building, when while we were doing our work, a 
breach. There was an individual directly in front of me who was 
carrying a large knife in a plastic bag into a major Federal 
building. It was an illegal weapon.
    There are two categories: Prohibited weapons and illegal 
weapons. This illegal weapon should have been taken from the 
individual; the individual should have been detained; the FPS 
should have been called, and further actions to understand what 
this individual was doing. All that the guard did was say, you 
can't bring that weapon in here, and kicked them out of the 
building. And, of course, to let the guy either go around to 
another entrance or to do whatever he did. And so clearly was 
not--I mean, we saw that ourselves.
    Ms. Norton. Does the training of guards occur in-house by 
the Federal Protective Service?
    Mr. Goldstein. No. It is done by the contract guard 
companies.
    Ms. Norton. So how does the Federal Protective Service know 
that it is getting trained guards?
    Mr. Goldstein. There are certifications that it receives 
from the contract guard companies about the kind of training 
that they have.
    Ms. Norton. Certifications. What does that mean?
    Mr. Goldstein. When guards go through their training 
program, the company will provide a statement basically that 
these individuals have received the requisite training.
    Ms. Norton. This is a judgment that the guards seemed to 
have received a requisite training.
    Mr. Goldstein. We haven't done that work yet. That is part 
of the follow-on work that we will do. But there were a lot of 
concerns raised with us about the adequacy of training and the 
adequacy of firearms training as well. And we will look into 
all this in the next part of our work for you.
    Ms. Norton. Now, you say that police officers are being 
told that there is no future for them here. Actually, we find 
in the Federal Service that there is lots of cross recruitment 
of Federal police officers, and that one of the difficulties is 
that I think that we have among the Federal police is that you 
sometimes get people going because of differences, some 
differences that it is hard to justify. And, of course, last 
year there was some attempt to deal with that with I think the 
Congress police and the police here, just to show you how 
ancient are some of these categories. But I am wondering 
whether a Federal police officer could just as easily try to 
find a job now at another Federal police agency or police 
agency in local jurisdiction, given the training that he may 
have received during a time when training was going on at a 
higher quality. Are these officers subject to leaving in any 
case because they are trained officers?
    Mr. Goldstein. The attrition rate is quite high. For 
officers last year it was 16 percent, and for inspectors it was 
11 percent. With many of the----
    Ms. Norton. How does that compare with attrition rates in 
either other Federal police forces or in other Federal work.
    Mr. Goldstein. We will make that comparison when we do the 
remainder of this work. We have not done that part of the work 
yet, but we will get back to you on that.
    Ms. Norton. What about these agencies which are being 
patrolled? What about these agencies that are being patrolled, 
the so-called clients of the FPS? Do they have a view as to 
whether they are being adequately protected if you are a 
Federal agency head or Federal agency manager at one level or 
another?
    Mr. Goldstein. I think there is a couple of concerns. What 
they want most is a uniformed presence. They really want a 
Federal police officer. They are very concerned.
    Ms. Norton. The agency?
    Mr. Goldstein. The agencies. That is correct. They think 
that the contract guards, the tenants think that the contract 
guards for the most part do an adequate job in the 
responsibilities that they have. But they recognize that the 
kind of protection they are getting is deteriorating because of 
all the other issues that we have been talking about in terms 
of the countermeasures, the lack of local law enforcement, and 
the loss of proactive patrols. They also have, in most cases, 
not been informed by the Federal Protective Service that this 
kind of shift is coming. In fact, we met with--we have met with 
more than two dozen building security committees, which is the 
tenants in the various buildings.
    Most of them, the first time they had heard that FPS was 
moving to an inspector-based approach or that they were 
reducing hours with our discussion of that with them.
    Ms. Norton. So you are saying FPS does not alert Federal 
agencies about the differences in transformation in the 
workforce, a workforce that they have always understood to have 
uniformed officers guarding the building?
    Mr. Goldstein. That is correct. Or the impact that it might 
have on their agencies. I talked to one agency that has regular 
weekend hours in which the public comes into the building, and 
they were not aware that the Federal Protective Service was not 
patrolling that building on that weekend, and indicating 
whether they had to rethink whether they could keep the 
building open on the weekends, which would affect the public 
access.
    Ms. Norton. We didn't ask you to review the morale of these 
officers and inspectors, because that is very difficult to 
evaluate. But what you have described does lead me to ask you, 
what about feedback you are getting from the officers, from the 
inspectors? Is there anything you can generalize about how the 
workforce is viewing this change?
    Mr. Goldstein. I think from our visits that we would have 
to say most of the workforce is demoralized. They don't have 
equipment. They have no career path, and many have been told to 
leave. They don't receive the training, the recognition, or the 
retirement of other law enforcement officials who do the same 
or similar work. The inspectors are overworked and overwhelmed. 
These are people who want to do a good job and are dedicated to 
protecting people and property from harm, and so they are 
having difficulty doing their job based on the kinds of 
challenges we mentioned, and the result is considerable 
attrition.
    Ms. Norton. I mentioned in my opening statement my 
astonishment when we learned in hearing last year that there 
would be jurisdictions where there would be Federal facilities 
that would not be patrolled at all by Federal Protective 
Service. And I wonder if there are such cities or other places 
in the United States where there is no Federal Protective 
Service presence. And, if not, is there any presence, guard 
presence or any semi-protection presence in the facilities 
where there at the time we thought there would be as many as 
50, where there is no Federal Protective Service presence.
    Mr. Goldstein. There would be presence within each region, 
and so there would be officers and inspectors in a large 
geographic area that would respond to incidents. But there are 
major Level 4 facilities in the United States.
    Ms. Norton. You need to describe what a Level 4 facility 
is.
    Mr. Goldstein. A Level 4 facility is a facility that has at 
least 450 employees, has a large amount of square footage, and 
has thousands of people coming and going every day. The larger 
facilities.
    Ms. Norton. This is almost the most secure facilities.
    Mr. Goldstein. That is correct. Except for a few places in 
the United States, these are the most secure Federal 
properties. There are Level 4 facilities that have no around-
the-clock or even regular Federal protection. There may be 
contract guards. But we have found some of those facilities 
have drastically----
    Ms. Norton. They do have contract guards?
    Mr. Goldstein. They have some, but they have been greatly 
reduced. I know of one Level 4 facility that went from seven 
Federal officers to zero, and from 30 contract guards to about 
six. And this is a facility that sees just considerable traffic 
both from the Federal workforce and the public. And I would 
rather not describe it any further, but it is at considerable 
risk.
    Ms. Norton. When we say no Federal Protective presence, 
does that mean on weekdays as well as weekends?
    Mr. Goldstein. For facilities like the one I just 
described.
    Ms. Norton. Like the Level 4 facility?
    Mr. Goldstein. That is correct. As I mentioned, there would 
be Federal police officers in the region, somewhere else within 
that region that could respond, but they are not at that 
facility per se. But it could take hours for someone, for a 
Federal officer to respond.
    Ms. Norton. So in the event of an emergency, now talking 
about emergency, where there are only contract guards, and here 
we are talking about contract guards at a number of Level 4 
facilities. The facility could be left with only contract 
guards, and with no one able to respond in an emergency 
because, as you say, even if the Federal police service is 
chasing someone, the contract guards don't feel that they can 
respond to an emergency in the way that a police officer can. 
Is that the case? There would be no response, no immediate 
response from a police officer?
    Mr. Goldstein. That is a possibility. Yes.
    Ms. Norton. In the event of an emergency?
    Mr. Goldstein. That is a possibility. I am aware of one 
incident recently at a pretty big Federal building in which, as 
I understand it, part of the roof appeared as if it was going 
to fall onto the sidewalk. And tenants called to have Federal 
Protective Service come and cordon off the area so that this 
thing would not fall and hurt someone, and it took an hour and 
a half for the Federal Protective Service to respond. A tenant 
stood outside, a building tenant, just a regular Federal 
employee stood outside for that period of time warning people 
and pushing them away. But no Federal law enforcement official. 
And apparently----
    Ms. Norton. Were there contract guards there.
    Mr. Goldstein. There were some contract guards. I don't 
know why the contract guards did not cordon the area off.
    Ms. Norton. Can a contract guard do anything? You just 
described a citizen.
    Mr. Goldstein. That is right.
    Ms. Norton. Can a contract--who stepped in to do this? If a 
contract guard did what a citizen would do, would the contract 
guard imperil his company?
    Mr. Goldstein. This is part of what we want to look into 
for the other job that we will be doing for you, we need to get 
into these issues and find out exactly what--not just their 
responsibilities are, but what the practical aspects of this 
are. Because I suspect there are many similar instances.
    Ms. Norton. This is very important to you to do. For 
example, and perhaps you can describe this. Often we 
offhandedly talk about a citizens arrest. That is, a citizen, I 
could go up to someone and say, "I am going to hold you here 
until someone comes." Do you believe a contract guard could do 
that? Or would contract guards do that, given what you have 
seen?
    Mr. Goldstein. We have not heard about those experiences in 
our review so far. We will look into that.
    Ms. Norton. Have you any information on whether or not 
there are any MOUs with jurisdictions where we heard testimony 
that the substitute for the Federal Protective Service would be 
local police who would sign on to memorandum of understanding 
to provide or fill in the necessary security.
    Mr. Goldstein. It is our understanding, based on 
discussions we had in all the site visits we went to, which has 
been since confirmed to us by the director of FPS, that there 
are no memorandums that have been signed to date. They have 
what are called mutual support agreements.
    Ms. Norton. Say that again.
    Mr. Goldstein. They have in place something that are called 
mutual support agreements, in which they simply have 
discussions by which they decide how to borrow each other's 
equipment, whether someone might use a K-9 dog, things like 
that, between local law enforcement and FPS. But there are no 
memorandums of agreement or understanding regarding the kinds 
of things that FPS is talking about in which local law 
enforcement would essentially take the place of FPS due to its 
downsizing and its reassignment to the inspector force.
    Ms. Norton. That is what they were talking about. They were 
talking about you would then call local MPD here?
    Mr. Goldstein. That is correct. In fact, in our discussions 
as I mentioned in my testimony, most of the police parties that 
we talked to indicated that they would not sign such an MOU for 
a variety of reasons, including the liability to them, the fact 
that they are overwhelmed and wouldn't be able to respond 
anyhow, and that they believe it is the role of the Federal 
Government.
    We found that in one city that we went to, most of the 
police departments, in fact, were not even aware that FPS 
wanted them to take on these additional responsibilities, and 
were not aware that FPS was no longer working on weekends or 
had reduced hours or had shifted to a situation in which they 
weren't patrolling.
    Ms. Norton. So not only did you find no MOUs; you found 
that in the cities where there might have been or were supposed 
to be MOUs, people hadn't even been contacted to sign an MOU?
    Mr. Goldstein. Right. Essentially, as we have looked at 
this work, there are four levels of protection. There is the 
Federal Protective Service itself. And that, as we say, has 
undergone significant change. There are the countermeasures 
which increasingly appear to be broken. There are the contract 
guards in which officers and inspectors have informed us there 
are significant problems about their performance. And then, 
finally, the local law enforcement response, which appears, 
except for emergencies, to be something that would not work.
    Ms. Norton. Has the contract guard workforce been 
relatively stable increased, or has it been also diminishing.
    Mr. Goldstein. It has increased considerably, from 5,000 in 
2000 to 15,000 last year.
    Ms. Norton. So it is a huge increase in contract guards, 
who have no authority, according to your testimony, to do much 
more than watch?
    Mr. Goldstein. Correct.
    Ms. Norton. Watch the buildings?
    Mr. Goldstein. And the number of inspectors who are 
required to oversee them have declined in that same time 
period.
    Ms. Norton. They are essentially on their own then?
    Mr. Goldstein. In many ways, yes. Because, as I indicated, 
because so many of the buildings that inspectors are required 
to watch are very far away from them. They may be hours away 
from their main post, and so they know--the contract guards are 
only going to get visited now and again, and they know they are 
not going to get visited on evening and weekends because the 
FPS isn't working. And one region indicated to us that because 
the inspectors were so overwhelmed by the work they were doing, 
that regional management told them that they should do their 
check and their oversight of the contract guards by telephone.
    Ms. Norton. I mentioned the liability question when it 
comes to contract guards, because, after all, they are working 
for the Federal Government. It seems to me that that could be 
worked out. I would ask you to look at what I believe is a real 
problem for local police forces; that is to say, the 
jurisdictional boundaries of police forces in fact all vary. 
For example, even the Federal police forces, one Federal police 
force does not do what another does because of the law and 
because of how the jurisdictional boundaries are laid out.
    Now, I believe there may well be Federal law or something 
akin to that with respect to whether a local law enforcement 
agency on the basis of the MOU, which has not been blessed by 
Congress, can simply go in and cross into a Federal building 
or, for that matter, vice versa.
    For example, the Park Police is the only police force, the 
only Federal police force in the District of Columbia that has 
citywide and regionwide jurisdiction, and it does have 
jurisdiction to arrest anywhere in the city or region. And that 
really comes from the fact that these massive Federal parks are 
located in the region and in the District of Columbia.
    Rock Creek Park, for example. Anacostia Park, or Dupont 
Park. So Congress, in its wisdom, says these folks can't patrol 
without having unusual jurisdiction, so it has given that 
jurisdiction. So the notion that by MOU, an agency can go out 
and say you now have jurisdiction to come in a Federal building 
raises, in my mind, frame of the law, whether or not there was 
any authority to do that in the first place. And I wish you 
would look into that matter.
    Mr. Goldstein. We plan to, ma'am. I would add that this is 
one of the issues that is really perplexing the officers and 
inspectors as well as the local law enforcement departments, 
because it is such an unclear situation where you have some 
facilities with exclusive Federal jurisdiction and some with 
concurrent, that they don't know how to respond and what the 
chain of command would be. And they don't also, local law 
enforcement realizes that in many instances, even if they can 
go into a Federal building, they need to be escorted by a 
Federal officer. But the problem of the staff shortages is such 
that if an emergency is occurring----
    Ms. Norton. I didn't get that local would have to be 
escorted.
    Mr. Goldstein. Right. In many instances, the local law 
enforcement official would have to be escorted by a Federal law 
enforcement official on the Federal property. If there is an 
emergency and there is only, say, one FPS officer and they need 
assistance and backup, if we are going to use local law 
enforcement, they would have to be--the FPS would have to be 
present. The local law enforcement just wouldn't be able to go 
into the building on their own is what we have been told so 
far. Obviously, we are going to look at this some more. But as 
I mentioned earlier, that FPS office for that region may be two 
or three hours away.
    Ms. Norton. It sounds like a patchwork that isn't even a 
patchwork. I am trying to understand it.
    Now, the Subcommittee and the Full Committee Chairmen have 
been concerned about the absorption of FPS into ICE. How would 
you characterize the relationship between FPS and ICE? And 
perhaps compare it to its relationship when it was in GSA.
    Mr. Goldstein. I can say that almost every single officer, 
inspector, and regional person we talked to out in the field 
indicated that the fit of FPS into ICE is poor, the fit of FPS 
into ICE is very bad. They almost uniformly felt that FPS 
belonged in one of three places: Either back at GSA; in part of 
DHS which is called infrastructure protection; or, as a stand-
alone unit.
    Ms. Norton. Why was that?
    Mr. Goldstein. They believed that ICE does not pay them any 
attention. Almost everyone indicated, used the kind of words: 
That they were a stepchild of ICE; that ICE did not understand 
the role of FPS and, that as a result, they did not get the 
kind of budget.
    Ms. Norton. Just one moment. ICE's mission is?
    Mr. Goldstein. ICE's mission is immigration and customs 
enforcement.
    Ms. Norton. So you have got to make us understand why, 
since these are Federal Protective Police, what led--putting 
yourselves in the minds of DHS, what led them to put the FPS in 
ICE in the first place?
    Mr. Goldstein. I can't answer that question right now; but 
it is something, as we look into these issues, we will get back 
to you about the rationale of why it was placed in ICE and 
where it might better belong.
    Ms. Norton. Because the only thing-- first thing it seems 
to me to do when you try to figure something out is not to say 
they are crazy. They must have had a reason. And the only 
reason I can think of off the top of my head is Border Patrol 
is in there and they patrol. So if you are only looking at 
labels, then these people patrol so you put them in there. Now, 
why doesn't that work?
    Mr. Goldstein. It is not working according to----
    Ms. Norton. Is Border Patrol a stepchild?
    Mr. Goldstein. No, it is not. One of the--it is a much 
bigger entity. FPS is relatively small by comparison. FPS has 
not been allowed to have some of the same kinds of training and 
authorizations and access even to intelligence information that 
the rest of ICE and DHS has.
    Ms. Norton. Now, what about being in infrastructure? Why 
would that be a better fit if they weren't in GSA, if they were 
in another part of--and you say it is called infrastructure.
    Mr. Goldstein. Infrastructure protection. We haven't looked 
at this yet. This is partly of what we will do.
    Ms. Norton. In the final report?
    Mr. Goldstein. In the final report.
    Ms. Norton. The final report is due?
    Mr. Goldstein. It is due at the end of May.
    Ms. Norton. Go ahead.
    Mr. Goldstein. What I am sharing with you is the 
frustrations of the officers who believe they ought to be 
elsewhere, and they were indicating places where they would 
have a better fit. But almost uniformly they believe it should 
not be in ICE.
    Ms. Norton. Now, if you would let me know more about what 
infrastructure and protection does. It makes them believe that 
they would be better suited if they were in DHS to be in that 
part.
    Mr. Goldstein. The infrastructure protection group handles 
the developing of plans to protect the infrastructure of the 
Nation. So that may be dams and nuclear facilities, it is 
Federal buildings, it is a lot of different things. And from 
their view, they belong in that area better because part of 
what they are doing is trying to protect bricks and mortar in 
the same way that the infrastructure protection group is 
looking to protect bricks and mortar.
    Ms. Norton. That was the thought that some of us had. But, 
again, we didn't know what was DHS's rationale. And it is very 
important, it will be very important in your final report to 
know what their rationale was, whether DHS is capable of 
rethinking a rationale.
    I am sympathetic at one level to DHS. Here, the Congress 
says, okay, here are, what is it, almost a dozen agencies. We 
slapped them together, and then we say to DHS, okay, you figure 
out how they fit in. So it seems to me that it is not unlikely 
that here and there you make a mistake or so. That would 
concern me less than whether this agency is open to self 
criticism, to looking at what it has done and correcting it. 
Or, whether it just digs in because that is where it is and 
that is what it is going to be.
    So I would like to know what their rationale was in the 
beginning, and if that rationale continues to be in their view 
a valid rationale for where they have placed the agency given 
the continuing criticism.
    Mr. Goldstein. Sure. We will be a happy to look into that 
as part of our review.
    Ms. Norton. Let me ask you about the funding source. It is 
a very interesting way we fund GSA. It worked pretty well. 
Would you describe how the Federal Protective Service is 
funded. Would you describe how the Federal Protective Service, 
what its funding source was when it was in GSA. Then, would you 
describe how that works now that it is in DHS.
    Mr. Goldstein. Sure. The Federal Protective Service 
received--when it was in GSA, received some funds from basic 
security fees that agencies paid. But it was never enough to 
cover the budget of the Federal Protective Service, so the GSA 
most years augmented their budget with money from the Federal 
Buildings Fund.
    Ms. Norton. Say that again.
    Mr. Goldstein. Sure. In most years, they received money 
through their fees from tenants, but has never been enough to 
cover.
    Ms. Norton. Fees from tenants is a way of saying that if I 
am the Small Business Administration, I pay out of my budget 
for my police service?
    Mr. Goldstein. That is correct. You pay a certain amount 
per square foot of space that you have from GSA.
    Ms. Norton. And you are saying in your testimony that that 
amount per square foot has actually gone up?
    Mr. Goldstein. It has been--that is correct. It has gone up 
about 65 percent in the last couple of years. It has never been 
enough to cover the costs, so those have always been augmented 
in the past by monies from the Federal Buildings Fund by nearly 
$100 million or some more than that.
    Ms. Norton. Where does the money from the Federal Buildings 
Fund come from?
    Mr. Goldstein. It is a revolving fund that comes from GSA, 
appropriated by Congress.
    Ms. Norton. Go ahead.
    Mr. Goldstein. But since FPS left GSA, the Federal 
Buildings Fund has not been available to it. So they have had 
that shortfall, which always existed, manifested itself in some 
pretty significant cuts.
    Ms. Norton. So, inevitably, there was going to be a 
shortfall. Let us understand this. We have Federal Protective 
Service where Congress has found a kind of neat way to fund 
them by giving some responsibilities to the agencies. So the 
agencies, out of its annual budget, acts like everybody else 
does, donates something to fund them. And then, and I would be 
interested in knowing what percentage. But then, of course, 
that was not going to be enough, and Congress kicked in. About 
what percentage came from these sources?
    Mr. Goldstein. The Federal Buildings Fund made up some--I 
am looking at this--looks like out of a third. In 2000, the 
Federal Buildings Fund provided $95 billion million; in 2001, 
$90 million; $197 million in 2002.
    Ms. Norton. This is pre--go ahead.
    Mr. Goldstein. And in 2003, $139 million. The last year in 
which it was in GSA, 2004, the Federal Buildings Fund provided 
$81 million. And then since then----
    Ms. Norton. When you say Federal Buildings Fund, you are 
talking about the Federal Government adding?
    Mr. Goldstein. Right, to the funds that were being provided 
by tenants. And at the very next year, 2005, is when we started 
running into issues. The shortfall in 2005 was $70 million, and 
the shortfall in 2006 was $57 million.
    Ms. Norton. Now, the shortfall in funds came from the fact 
that it didn't come from the Federal Buildings Fund anymore?
    Mr. Goldstein. That is correct. Fees at that point were not 
rising that much. And so you have----
    Ms. Norton. Where did the money to cover the shortfall come 
from?
    Mr. Goldstein. It came from a combination from cost cutting 
measures, which I indicated have had a detrimental effect in 
many ways, because those cost cutting measures have eaten into 
training and job-related travel, into equipment repairs like 
radios, into--if they haven't had new uniforms in years or 
sometimes even cars. So it has had a detrimental effect on the 
agency itself.
    Ms. Norton. On the agency? So does this mean that there is 
no regular way to in fact supplement what the agency itself 
pays as it was when the FPS was in GSA?
    Mr. Goldstein. They simply do not have the funds to cover 
the costs, that is correct, of providing. They do not get 
enough money out of either the building specific fees, the 
basic security fees, or the security work orders that they do 
to fund the agency. And so they have had to, in the number of 
years, in 2006 they had to institute $25 million in cost 
cutting measures, and in 2007 they instituted $27 million of 
cost cutting measures.
    Ms. Norton. Is DHS authorized to augment funds when you see 
this shortfall occurring?
    Mr. Goldstein. In 2006, DHS reprogrammed $29 million to 
augment their budget in order to ensure that the agency wasn't 
anti-deficient.
    Ms. Norton. Well, does this mean that the ratio that was 
always understood and apparently worked in the past needs to be 
figured out with DHS as it was when the agency was in GSA? Are 
you telling me that this changes from year to year without any 
understanding about approximately how much is going to come 
from each funding source, who is going to pay for it?
    Mr. Goldstein. I think without significant changes they are 
going to be in that situation, because they either have to 
raise fees to such an extent that the tenants are going to 
balk.
    Ms. Norton. That would be the agencies, out of their 
budgets?
    Mr. Goldstein. That is right. Or you are going to have to 
find some other mechanism.
    Ms. Norton. And the other mechanism before, was?
    Mr. Goldstein. Was the Buildings Fund.
    Ms. Norton. Which was the revolving fund. Revolving fund 
always has some funds. And how does it get its funds?
    Mr. Goldstein. It gets its funds mainly through tenant fees 
as well as Congress always kicked in additional money. But that 
money usually went toward specific construction projects.
    Ms. Norton. And, of course, agencies pay rent, as it were.
    Mr. Goldstein. That is right.
    Ms. Norton. And agencies pay rent; that is how you get a 
buildings fund, yes, with some augmentation. And the agencies 
pay a fee for FPS. So at least there was some understood 
funding source. So when you came to Congress, or if you came to 
Congress, and I don't think this was regular and necessary, but 
if you came to Congress and said more money to fund, there was 
some way to understand why there had been a shortfall.
    And I don't understand that there is a way to understand 
why there is a shortfall here, because it seems to me that when 
they don't have enough money, they simply cut even vital 
matters like equipment and cameras and the like.
    Mr. Goldstein. That is correct. That is what they have been 
forced to do.
    Ms. Norton. Mr. Goldstein, would you--I am trying to get to 
the cause of this. Obviously, the Department of Homeland 
Security would not want to absorb a police force and then see 
it robbed of its police power, see it transformed from a police 
force that thought it ought to be there because it was a police 
force. Obviously, it would not want to cut equipment.
    I am wondering whether it would even desire, all things 
being considered, to convert the police force into basically an 
inspector force and leave the police work altogether. Would you 
say the reduction in equipment, the transformation to an 
inspector-based force, and the encouragement of officers to 
leave the agency all have essentially as their purpose to 
reduce costs and not a purpose that is related to security?
    Mr. Goldstein. I think----
    Ms. Norton. Can you find a substantive reason for these 
radical changes in the police force for the protection of 
Federal sites and workers?
    Mr. Goldstein. Well, I think it is twofold. I think they 
clearly want to transform FPS into a different kind of entity 
that is not reliant on police officers, in which they have a 
single kind of officer, the inspector, who can do a variety of 
different things.
    Ms. Norton. Do you believe it is possible for a police 
officer to do that variety of things or that there ought to be 
some dedicated police officers?
    Mr. Goldstein. Based on what we have heard to date, I would 
have to say that we feel that the approach they are taking does 
undermine security. Now we recognize that they have had a 
number of budgetary consequences over the last couple of years 
which have, in combination with this policy change, has 
aggravated the situation. But it is clear to us by talking with 
the 200-plus officers and inspectors we have talked to that 
going to an all-inspector-based force will simply overwhelm 
them.
    These inspectors talked about not having the time to do all 
of their work, not even a fraction of their work, that they 
could spend virtually all of their time just doing one part of 
that work. So all of the functions they have tend to 
deteriorate as a result. So it is--we don't see the evidence so 
far that this approach would work.
    Ms. Norton. Mr. Goldstein, I also would like to ask you to 
look in the final report and to find out whether one would need 
to be a peace officer to do the inspection work. Peace officers 
are very highly paid in our society for a very good reason, not 
just because they carry a gun. It is what we are asking them to 
do. And so police officers are usually paid better and have 
better pensions than other Federal employees.
    Now we are talking about inspectors. As DHS believes that 
these people go around inspecting all the time, that may be a 
valid role. But I would like you to look into whether or not 
they need to be peace officers, whether they need to have all 
the powers of being a peace officer, which is substantial in 
order to be an inspector, so that the Congress can decide 
whether or not this is the way to achieve what the DHS wants to 
achieve and whether it can be achieved by sacrificing the 
patrolling and other work of Federal police service as we have 
known them.
    Mr. Goldstein, I appreciate that you have done what the GAO 
does in unusual circumstances. It is much like what scientists 
do in a controlled study.
    When you are doing a controlled study and you find that the 
study is, for example, telling you that people should stop 
taking a medication or I have seen a Member, maybe 10 years 
ago, where there was a controlled study--I remember the Women's 
Caucus was delighted when there was a controlled study that 
found that some drug that was being taken, I don't know, to 
prevent breast cancer or some such was unusually effective. So 
instead of waiting until the end of the control study, they 
alerted people to what they had found. So they alerted us from 
the negative end; they alerted us on the positive end.
    So the GAO is not here in the tradition of the GAO. We 
found something, and perhaps it was brought to the attention of 
Congress before your final study is due to bring it to our 
attention. You have done that in this case because you 
understood this involved security of Federal employees and 
visitors and simply treating it as a report that tells us 
something that we needed to know might not be sufficient. For 
that, I want to thank you very much on behalf of the 
Subcommittee and the Committee and to say that we very much 
look forward to receiving your final report.
    Mr. Goldstein. Thank you, ma'am. Thank you for your 
attention to the matter.
    Ms. Norton. The hearing is adjourned.
    [Whereupon, at 10:50 a.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0697.006
    
    [GRAPHIC] [TIFF OMITTED] T0697.007
    
    [GRAPHIC] [TIFF OMITTED] T0697.008
    
    [GRAPHIC] [TIFF OMITTED] T0697.009
    
    [GRAPHIC] [TIFF OMITTED] T0697.010
    
    [GRAPHIC] [TIFF OMITTED] T0697.011
    
    [GRAPHIC] [TIFF OMITTED] T0697.012
    
    [GRAPHIC] [TIFF OMITTED] T0697.013
    
    [GRAPHIC] [TIFF OMITTED] T0697.014
    
    [GRAPHIC] [TIFF OMITTED] T0697.015
    
    [GRAPHIC] [TIFF OMITTED] T0697.016
    
    [GRAPHIC] [TIFF OMITTED] T0697.017
    
    [GRAPHIC] [TIFF OMITTED] T0697.018
    
    [GRAPHIC] [TIFF OMITTED] T0697.019
    
    [GRAPHIC] [TIFF OMITTED] T0697.020
    
    [GRAPHIC] [TIFF OMITTED] T0697.021
    
    [GRAPHIC] [TIFF OMITTED] T0697.022
    
    [GRAPHIC] [TIFF OMITTED] T0697.023
    
    [GRAPHIC] [TIFF OMITTED] T0697.024
    
    [GRAPHIC] [TIFF OMITTED] T0697.025
    
    [GRAPHIC] [TIFF OMITTED] T0697.026
    
    [GRAPHIC] [TIFF OMITTED] T0697.027
    
    [GRAPHIC] [TIFF OMITTED] T0697.028
    
                                    

</pre></body></html>
